          HEARING BEFORE THE
    COMMITTEE ON APPROPRIATIONS
SUBCOMMITTEE ON FINANCIAL SERVICES AND
         GENERAL GOVERNMENT
    U.S. HOUSE OF REPRESENTATIVES

    “OVERSIGHT HEARING – INTERNAL
          REVENUE SERVICE”




                  Testimony of
        The Honorable J. Russell George
Treasury Inspector General for Tax Administration

                  June 3, 2013

                Washington, D.C.
                                TESTIMONY
                                    OF
                         THE HONORABLE J. RUSSELL
                                  GEORGE
            TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                                   before
                                    the
                       COMMITTEE ON APPROPRIATIONS
                 SUBCOMMITTEE ON FINANCIAL SERVICES AND
                           GENERAL GOVERNMENT
                      U.S. HOUSE OF REPRESENTATIVES

                        “Oversight Hearing – Internal Revenue Service”

                                            June 3, 2013

        Chairman Crenshaw, Ranking Member Serrano, and Members of the
Subcommittee, thank you for the invitation to provide testimony on the subject of the
Internal Revenue Service’s (IRS) processing of certain applications for tax-exempt
status. The Treasury Inspector General for Tax Administration, also known as TIGTA,
has provided ongoing oversight of the IRS’s Tax Exempt and Government Entities
Division, Exempt Organizations’ (EO) customer service and compliance efforts,
including those related to political activities. For example, several reviews have
covered the IRS’s political activities compliance initiative,1 as well as the processing of
political action committees’ returns.2

       My testimony today focuses on the recommendations in our most recently
issued report and the areas where improvement is needed.3 In this report, TIGTA
determined whether allegations were founded that the IRS: 1) targeted specific
groups applying for tax-exempt status, 2) delayed processing targeted groups’
applications for tax-exempt status, and 3) requested unnecessary information from
targeted groups. Our report is included as an attachment to the testimony, and I will
provide highlights of our key findings.


1
  TIGTA, Ref. No. 2005-10-035, Review of the Exempt Organizations Function Process for Reviewing
Alleged Political Campaign Intervention By Tax-Exempt Organizations (Feb. 2005);
TIGTA, Ref. No. 2008-10-117, Improvements Have Been Made to Educate Tax-Exempt Organizations and
Enforce the Prohibition Against Political Activities, but Further Improvements Are Possible (June 2008).
2
  TIGTA, Ref. No. 2005-10-125, Additional Actions Are Needed to Ensure Section 527 Political
Organizations Publicly Disclose Their Actions Timely and Completely (Aug. 2005);
TIGTA, Ref. No. 2010-10-018, Improvements Have Been Made, but Additional Actions Could Ensure That
Section 527 Political Organizations More Fully Disclose Financial Information (Feb. 2010).
3
  TIGTA, Ref. No. 2013-10-053, Inappropriate Criteria Were Used to Identify Tax-Exempt Applications for
Review (May 2013).
                                                  1
        Organizations, such as Internal Revenue Code (I.R.C.) Section (§) 501(c)(3) 4
charities, seeking Federal tax exemption are required to file an application with the
IRS. Other organizations, such as I.R.C. § 501(c)(4)5 social welfare organizations,6
may file an application but are not required to do so. The IRS’s EO function’s Rulings
and Agreements office, which is based in the Washington, D.C. headquarters office, is
responsible for processing applications for tax exemption. Within the Rulings and
Agreements office, the Determinations Unit in Cincinnati, Ohio, is responsible for
reviewing applications as they are received to determine whether the organization
qualifies for tax-exempt status. If the Determinations Unit needs technical assistance7
processing applications, it may call upon the Technical Unit in Washington, D.C.,
which is within the Rulings and Agreements headquarters office.

       Most organizations requesting tax-exempt status must submit either Form
1023, Application for Recognition of Exemption Under Section 501(c)(3) of the
Internal Revenue Code, or Form 1024, Application for Recognition of Exemption
Under Section 501(a),8 depending on the type of tax-exempt organization.

       The I.R.C. section under which an organization is granted tax-exempt status
affects the activities it may undertake. For example, I.R.C. § 501(c)(3) charitable
organizations are prohibited from directly or indirectly participating in or intervening in
any political campaign on behalf of or in opposition to any candidate for public office
(hereinafter referred to as political campaign intervention).9 However, I.R.C. § 501(c)(4)
social welfare organizations, I.R.C. § 501(c)(5)10 agricultural and labor organizations, 11




4
  I.R.C. § 501(c)(3) (2012).
5
  I.R.C. § 501(c)(4) (2012).
6
  Organizations that promote social welfare primarily promote the common good and general welfare of the
people of the community as a whole, such as nonprofit organizations providing financial counseling, youth
sports, and public safety.
7
  Assistance such as interpretation of the tax law or guidance on issues that are not covered by clearly
established precedent.
8
  Form 1024 is used by organizations seeking tax-exempt status under a number of other I.R.C. sections,
including I.R.C. § 501(c)(4) social welfare organizations, I.R.C. § 501(c)(5) agricultural and labor
organizations, and I.R.C. § 501(c)(6) business leagues.
9
  Political campaign intervention is the term used in Treasury Regulations §§ 1.501(c)(3)-1, 1.501(c)(4)-1,
1.501(c)(5)-1, and 1.501(c)(6)-1. I.R.C. § 501(c)(3) defines political campaign intervention as directly or
indirectly participating in or intervening in any political campaign on behalf of or in opposition to any
candidate for public office.
10
   I.R.C. § 501(c)(5) (2012).
11
   Agricultural organizations promote the interests of persons engaged in raising livestock or harvesting
crops, and labor organizations include labor unions and collective bargaining associations.
                                                    2
and I.R.C. § 501(c)(6)12 business leagues13 may engage in limited political campaign
intervention per the Treasury Regulations.14

       The IRS receives thousands of applications for tax-exempt status annually.
Between fiscal years 2009 and 2012, the IRS received approximately 60,000 to 65,000
applications for I.R.C. § 501(c)(3) status each year. In addition, receipts for
I.R.C. § 501(c)(4) applications increased between fiscal years 2009 and 2012 from
approximately 1,700 to more than 3,300 annually.

       During the 2012 election cycle, some Members of Congress raised concerns to
the IRS about its selective enforcement efforts and reemphasized its duty to treat similar
organizations consistently. In addition, several organizations applying for
I.R.C. § 501(c)(4) tax-exempt status made allegations that the IRS: 1) targeted specific
groups applying for tax-exempt status, 2) delayed the processing of targeted groups’
applications for tax-exempt status, and 3) requested unnecessary information from
targeted organizations. Lastly, several Members of Congress requested that the IRS
investigate whether existing social welfare organizations are improperly engaged in a
substantial, or even predominant, amount of campaign activity. 15

       We initiated this audit based on concerns expressed by Congress and reported in
the media regarding the IRS’s treatment of organizations applying for tax-exempt status.
We focused our efforts on reviewing the processing of applications for tax-exempt status
and determining whether allegations made against the IRS were founded. Over 600
tax-exempt application case files were reviewed by TIGTA. We did not review whether
specific applications for tax-exempt status should be approved or denied. We also did
not review any IRS examinations of tax-exempt organizations in this audit.

Results of Review

        In summary, we found that all three allegations were substantiated. The IRS used
inappropriate criteria that identified for review Tea Party and other organizations applying
for tax-exempt status based upon their names or policy positions instead of indications of
potential political campaign intervention. Because of ineffective management by IRS
officials: 1) inappropriate criteria were developed and stayed in place for a total of more



12
   I.R.C. § 501(c)(6) (2012).
13
   Nonprofit organizations such as chambers of commerce, real estate boards, and boards of trade that
promote the improvement of business conditions.
14
   Treasury Regulations §§ 1.501(c)(4)-1, 1.501(c)(5)-1, and 1.501(c)(6)-1.
15
   A second audit is planned to assess how the EO function monitors I.R.C. §§ 501(c)(4)–(6) organizations
to ensure that political campaign intervention does not constitute their primary activity.
                                                   3
than 18 months, 2) there were substantial delays in processing certain applications, and
3) unnecessary information requests were issued to the organizations.

Inappropriate Criteria Were Used to Identify Potential Political Cases

       The IRS developed and began using criteria to identify tax-exempt applications
for additional review by a team of specialists that inappropriately identified specific
groups applying for tax-exempt status based on their names or policy positions, instead
of developing criteria based on tax-exempt laws and Treasury Regulations. The criteria
evolved during 2010 and 2011. By June 2011, these criteria had been expanded to
include the following:




        The Director, EO, stated that the expanded criteria were a compilation of various
Determinations Unit specialists’ responses on how they were identifying Tea Party
cases. We asked the Acting Commissioner, Tax Exempt and Government Entities
Division; the Director, EO; and Determinations Unit personnel if the criteria were
influenced by any individual or organization outside the IRS. All of these officials stated
that the criteria were not influenced by any individual or organization outside the IRS.
Instead, the Determinations Unit developed and implemented inappropriate criteria due
to insufficient oversight provided by management and other human capital challenges.
Specifically, only first-line management in Cincinnati, Ohio approved references to the
Tea Party in the “Be On the Look Out” (BOLO) listing criteria. As a result, inappropriate
criteria remained in place for more than 18 months.16 Determinations Unit managers
and employees also did not consider the public perception of using these criteria when
identifying these cases. Moreover, the criteria showed that the Determinations Unit
specialists lacked knowledge of what activities are allowed by I.R.C. § 501(c)(3) and
I.R.C. § 501(c)(4) organizations.

       However, developing and using criteria that focus on organization names and
policy positions instead of the activities permitted under the Treasury Regulations does
not promote public confidence that tax-exempt laws are being applied impartially. The
IRS’s actions regarding the use of inappropriate criteria over such an extended period of

16
  The 18 months were not consecutive. There were two different time periods when the criteria were
inappropriate (May 2010 to July 2011 and January 2012 to May 2012).
                                                  4
time has brought into question whether the IRS has treated all taxpayers fairly, which is
an essential part of its mission statement.17

      After being briefed on the expanded criteria in June 2011, the Director, EO,
immediately directed that the criteria be changed. In July 2011, the criteria were
changed to focus on the potential “political, lobbying, or advocacy” activities of the
organization and references to these cases were changed from “Tea Party cases” to
“advocacy cases.” These criteria were an improvement over using organization names
and policy positions.

        However, the team of Determinations Unit specialists subsequently changed the
criteria in January 2012 without senior IRS official approval because they believed the
July 2011 criteria were too broad. The January 2012 criteria again focused on the
policy positions of organizations, instead of tax-exempt laws and Treasury Regulations.
After three months, the Director, Rulings and Agreements, in Washington, D.C. learned
the criteria had been changed by the team of specialists and subsequently revised the
criteria again in May 2012. The May 2012 criteria more clearly focus on activities
permitted under the Treasury Regulations. As a result of changes made to the criteria
without management knowledge, the Director, Rulings and Agreements, issued a
memorandum requiring all original entries and changes to criteria included on the BOLO
listing be approved at the executive level prior to implementation. We are not aware of
any additional changes to the criteria through December 2012 when our audit fieldwork
concluded. We are continuing to look into whether any violations of the Internal
Revenue Service Restructuring and Reform Act of 1998 18 (RRA 98) have occurred and
if any political influence caused the change in criteria and the unnecessary questions.19

       Another area needing improvement is the screening of tax-exempt applications
for potential political campaign intervention. We determined that the Determinations
Unit specialists did not identify all applications with indications of significant political
campaign intervention. As a result, these cases were not referred to the team of
specialists for further review. Based on our review of two statistical samples of


17
   The IRS’s mission is to provide America’s taxpayers top-quality service by helping them understand and
meet their tax responsibilities and enforce the law with integrity and fairness to all.
18
   Pub. L. No. 105-206, 112 Stat. 685. 1998 (codified as amended in scattered sections of 2 U.S.C.,
5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and
49 U.S.C.).
19
   For example, it is a violation of RRA 98 § 1203(b)(3) for IRS employees to violate a taxpayer’s civil
rights, a violation of RRA 98 § 1203(b)(4) to falsify or destroy documents to conceal mistakes made by any
employee with respect to a matter involving a taxpayer or taxpayer representative, and a violation of
RRA 98 § 1203(b)(6) for IRS employees to violate the Internal Revenue Code, Treasury Regulations, or
policies of the IRS for purposes of retaliating against or harassing a taxpayer. Proven violations of Section
1203 require the termination of the offending IRS employee.
                                                     5
I.R.C. § 501(c)(4) applications,20 we estimate that more than 175 organizations with
indications of significant political campaign intervention were not referred to the team of
specialists for further review.

        In addition, while we determined that the majority of the 296 potential political
cases we reviewed included indications of significant political campaign intervention, 91
cases (31 percent) did not. Of the 91 cases, 17 involved Tea Party, Patriots, or 9/12
organizations. The IRS disagreed with this finding that the cases did not include
indications of significant political campaign intervention;21 however, the IRS screeners
did not document in the case files the specific reason why the applications were
selected for further review and we did not find evidence in the 91 case files of significant
political campaign intervention.

       We made three recommendations to address the findings for this allegation. One
was to ensure that the requirement for the IRS headquarters executive22 to approve any
changes to the BOLO listing criteria was formalized in the Internal Revenue Manual.
The second recommendation was to develop procedures to document the case file with
the reason applications are selected for additional review by the team of specialists.
The IRS provided a September 30, 2013 completion date for these two actions. The
third was to develop training before each election cycle on the proper ways to identify
applications for tax-exempt status that require additional review of political campaign
intervention activities. The IRS provided a January 31, 2014 completion date for
developing training and preparing a schedule for delivering the new training.

       In addition, we noted during our audit that the use of organization names on the
BOLO listing was not unique to potential political cases. We are now reviewing whether
the IRS inappropriately used names and policy positions to group together applications
for other types of review and what effect that may have had on how those applications
were processed.




20
   These two statistical samples were selected from I.R.C. § 501(c)(4) applications that were closed from
May 2010 through May 2012.
21
   Exempt Organizations function officials stated that applications may not literally include statements
indicating significant political campaign intervention; however, they contend based on past experience that
certain statements or vague descriptions of certain activities potentially involve political campaign
intervention.
22
   Exempt Organizations Director, Rulings and Agreements.
                                                    6
Potential Political Cases Experienced Significant Processing Delays

       The organizations that applied for tax-exempt status and had their applications
forwarded to the team of specialists for additional review experienced substantial
delays. As of December 17, 2012, many organizations had not received an approval or
denial letter for more than two years after they submitted their applications. Some
cases have been open during two election cycles (2010 and 2012).

       Potential political cases took significantly longer than average to process due to
ineffective management oversight. Once cases were initially identified for processing by
the team of specialists in February 2010, the Determinations Unit Program Manager
requested assistance via e-mail from the Technical Unit to ensure consistency in
processing the cases. However, the Determinations Unit waited more than 20 months
(February 2010 to November 2011) to receive draft written guidance from the Technical
Unit for processing potential political cases.

       The team of specialists stopped working on potential political cases from
October 2010 through November 2011, resulting in a 13-month delay, while they waited
for assistance from the Technical Unit in Washington, D.C. Some organizations received
requests for additional information in Calendar Year 2010 and then did not hear from the
IRS again for more than a year while the Determinations Unit waited for assistance from
the Technical Unit. For the 296 potential political cases we reviewed, as of
December 17, 2012, 108 applications had been approved, 28 were withdrawn by the
applicant, none had been denied, and 160 cases were open from 206 to 1,138 calendar
days (some crossing two election cycles).

       For applications for tax-exempt status under I.R.C. § 501(c)(3), the tax law
provides organizations with the legal right to sue the IRS to force a decision on their
applications if the IRS does not approve or deny their applications within 270 calendar
days.23 As of the conclusion of our audit in February 2013, none of the 32 I.R.C. §
501(c)(3) potential political cases that were open more than 270 calendar days 24 had
sued the IRS. We have subsequently learned that a lawsuit has been filed on behalf of
two organizations applying for § 501(c)(3) tax-exempt status.

        We made five recommendations to address the findings for this allegation. The
first was to develop a process for formally requesting assistance from the Technical Unit
to ensure that the requests are responded to timely. The IRS provided a June 30, 2013
completion date for this action. The second recommendation was to develop guidance

23
     Revenue Procedure 2012-09 provides further guidance on the implementation of this right.
24
     These 32 organizations had responded timely to all requests for additional information, as required.
                                                       7
to process requests for tax-exempt status involving potentially significant political
campaign intervention and publish the guidance on the Internet. The IRS provided a
January 31, 2014 completion date for developing training and preparing a schedule for
delivering training, but did not comment on developing new guidance. The third was to
develop training that should be held before each election cycle that includes what
constitutes political campaign intervention. The IRS provided a January 31, 2014
completion date for developing training and preparing a schedule for delivering the new
training. The fourth was to ensure that potential political cases, some of which have
been in process for three years, are approved or denied expeditiously. The IRS
provided an April 30, 2013 completion date for this action. However, this action was
principally to provide close oversight on the remaining open cases and to work them as
expeditiously as possible, not to close all cases by April 30, 2013. The fifth was to have
IRS Chief Counsel and the Department of the Treasury consider guidance on how to
measure the “primary activity” of I.R.C. § 501(c)(4) social welfare organizations. The IRS
provided a May 3, 2013 completion date for sharing this recommendation with the IRS
Chief Counsel and the Treasury Office of Tax Policy. We do not know whether a
decision has been made on any new guidance.

The IRS Requested Unnecessary Information for Many Potential Political Cases

        After receiving draft guidance in November 2011 from the Technical Unit on
processing potential political cases, a team of specialists25 in the Determinations Unit
began sending requests for additional information in January 2012 to organizations that
were applying for tax-exempt status. These letters requested that the information be
provided in two or three weeks (as is customary in these letters) despite the fact that the
IRS had done nothing with some of the applications for more than one year. After the
letters were received, organizations seeking tax-exempt status, as well as Members of
Congress, expressed concerns about the type and extent of questions being asked.

        After these concerns were raised, the Director, EO, stopped issuance of additional
information request letters and provided an extension of time to respond to previously
issued letters. EO function headquarters employees in Washington, D.C. reviewed the
additional information request letters prepared by the team of specialists and identified
seven questions that they deemed unnecessary, including requests for donor
information, position on issues, and whether officers have run for public office.
Subsequently, the EO function instituted the practice that all additional information
request letters for potential political cases be reviewed by the EO function headquarters
office before they are sent to organizations seeking tax-exempt status. In addition, EO

25
 This team of specialists was different than the specialists who were using the inappropriate criteria and
BOLO listing to identify potential political cases for additional review.
                                                    8
function officials informed us that they decided to destroy all donor lists that had been
sent in for potential political cases which the IRS determined it should not have
requested.

       The Determinations Unit requested unnecessary information because of a lack of
managerial review, at all levels, of these information requests before they were sent to
organizations seeking tax-exempt status. Additionally, as mentioned earlier, we
concluded that Determinations Unit specialists lacked knowledge of what activities are
allowed by I.R.C. § 501(c)(4) tax-exempt organizations. In May 2012, a two-day
workshop was provided to the team of specialists to train them on what activities are
allowable by I.R.C. § 501(c)(4) organizations, including lobbying and political campaign
intervention.

        To address this allegation, we recommended that training or workshops be
developed and held before each election cycle that includes how to word questions in
additional information request letters and what additional information should be
requested. The IRS provided a January 31, 2014 completion date for developing training
and preparing a schedule for delivering the new training. In addition, it is important to
ensure that the new control by the Exempt Organizations headquarters office in
reviewing all potential political cases’ additional information request letters is working
effectively.

IRS’s Response to Our Recommendations

       The IRS agreed to seven of our nine recommendations and proposed alternative
corrective actions for two of our recommendations. However, after our report was
publicly issued, President Obama directed Treasury Secretary Lew to implement each of
our recommendations. In turn, Secretary Lew instructed the newly appointed Acting IRS
Commissioner, Mr. Werfel, to implement, fully and promptly, all nine of our report
recommendations. Until all of our recommendations are fully implemented and the
numerous applications that were open as of December 2012 are closed, we do not
consider the concerns in this report to be resolved. The attached TIGTA report includes
additional information on all nine recommendations and the IRS’s planned corrective
actions and completion dates.

       We plan to perform a separate audit to assess the IRS’s progress in addressing
the recommendations made in our report. In addition, as part of our mission, TIGTA will
also determine whether any criminal activity or administrative misconduct occurred
during this process. Furthermore, we plan to conduct a review to assess how the IRS



                                             9
monitors I.R.C. sections 501(c)(4)–(6) organizations to ensure that political campaign
intervention does not constitute their primary activity.

        We at TIGTA are committed to delivering our mission of ensuring an effective and
efficient tax administration system and preventing, detecting, and deterring waste, fraud,
and abuse. As such, we plan to provide continuing audit and investigative coverage of
the IRS’s efforts to administer the tax-exempt laws.

      Chairman Crenshaw, Ranking Member Serrano, and Members of the
Subcommittee, thank you for the opportunity to update you on our work on this tax
administration issue.




                                           10
                         J. Russell George
                         Treasury Inspector General for Tax
                         Administration
                         Following his nomination by President George W. Bush, the
                         United States Senate confirmed J. Russell George in
                         November 2004, as the Treasury Inspector General for Tax
                         Administration. Prior to assuming this role, Mr. George served
                         as the Inspector General of the Corporation for National and
                         Community Service, having been nominated to that position by
                         President Bush and confirmed by the Senate in 2002.

A native of New York City, where he attended public schools, including Brooklyn
Technical High School, Mr. George received his Bachelor of Arts degree from Howard
University in Washington, D.C., and his Doctorate of Jurisprudence from Harvard
University's School of Law in Cambridge, MA. After receiving his law degree, he
returned to New York and served as a prosecutor in the Queens County District
Attorney's Office.

Following his work as a prosecutor, Mr. George joined the Counsel's Office in the White
House Office of Management and Budget where he was Assistant General Counsel. In
that capacity, he provided legal guidance on issues concerning presidential and
executive branch authority. He was next invited to join the White House Staff as the
Associate Director for Policy in the Office of National Service. It was there that he
implemented the legislation establishing the Commission for National and Community
Service, the precursor to the Corporation for National and Community Service. He then
returned to New York and practiced law at Kramer, Levin, Naftalis, Nessen, Kamin &
Frankel.

In 1995, Mr. George returned to Washington and joined the staff of the Committee on
Government Reform and Oversight and served as the Staff Director and Chief Counsel
of the Government Management, Information and Technology subcommittee (later
renamed the Subcommittee on Government Efficiency, Financial Management and
Intergovernmental Relations), chaired by Representative Stephen Horn. There he
directed a staff that conducted over 200 hearings on legislative and oversight issues
pertaining to Federal Government management practices, including procurement
policies, the disposition of government-controlled information, the performance of chief
financial officers and inspectors general, and the Government's use of technology. He
continued in that position until his appointment by President Bush in 2002.




                                           11
In addition to his duties as the Inspector General for Tax Administration, Mr. George
serves as a member of the Recovery Accountability and Transparency Board, a non-
partisan, non-political agency created by the American Recovery and Reinvestment Act
of 2009 to provide unprecedented transparency and to detect and prevent fraud, waste,
and mismanagement of Recovery funds. There, he serves as chairman of the
Recovery.gov committee, which oversees the dissemination of accurate and timely data
about Recovery funds.

Mr. George also serves as a member of the Integrity Committee of the Council of
Inspectors General for Integrity and Efficiency (CIGIE). CIGIE is an independent entity
within the executive branch statutorily established by the Inspector General Act, as
amended, to address integrity, economy, and effectiveness issues that transcend
individual Government agencies; and increase the professionalism and effectiveness of
personnel by developing policies, standards, and approaches to aid in the
establishment of a well-trained and highly skilled workforce in the offices of the
Inspectors General. The CIGIE Integrity committee serves as an independent review
and investigative mechanism for allegations of wrongdoing brought against Inspectors
General.




                                          12
